<html>
<title> - WORLD AT RISK: THE WEAPONS OF MASS DESTRUCTION PREVENTION AND PREPAREDNESS ACT OF 2009</title>
<body><pre>[Senate Hearing 111-757]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-757
 
                   WORLD AT RISK: THE WEAPONS OF MASS
                       DESTRUCTION PREVENTION AND
                        PREPAREDNESS ACT OF 2009

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
53-840                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                     Kevin J. Landy, Chief Counsel
                      Gordon N. Lederman, Counsel
              Aaron M. Firoved, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                Asha a. Mathew, Minority Senior Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator Akaka................................................    19
    Senator McCaskill............................................    22
Prepared statements:
    Senator Lieberman............................................    33
    Senator Collins..............................................    35
    Senator Bennet...............................................    38

                               WITNESSES
                      Tuesday, September 22, 2009

Hon. Bob Graham, Chairman, Commission on the Prevention of 
  Weapons of Mass Destruction Proliferation and Terrorism........     6
Hon. Jim Talent, Vice Chairman, Commission on the Prevention of 
  Weapons of Mass Destruction Proliferation and Terrorism........    10
Gregory D. Kutz, Managing Director, Forensic Audits and Special 
  Investigations, U.S. Government Accountability Office..........    12

                     Alphabetical List of Witnesses

Graham, Hon. Bob:
    Testimony....................................................     6
    Joint prepared statement with Mr. Talent.....................    39
Kutz, Gregory D.:
    Testimony....................................................    12
    Prepared statement...........................................    50
Talent, Hon. Jim:
    Testimony....................................................    10
    Joint prepared statement with Mr. Graham.....................    39

                                APPENDIX

Letter submitted by Senator Graham from the Business Executives 
  for National Security (BENS), dated September 17, 2009.........    66
Chart submitted by Mr. Kutz......................................    70
Letter from American Society for Microbiology (ASM), dated 
  September 18, 2009.............................................    71
Letter from Galveston National Laboratory (GNL), dated September 
  18, 2009.......................................................    77
Responses to post-hearing questions for the Record from Mr. Kutz.    83


                   WORLD AT RISK: THE WEAPONS OF MASS
                       DESTRUCTION PREVENTION AND
                        PREPAREDNESS ACT OF 2009

                              ----------                              


                      TUESDAY, SEPTEMBER 22, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Pryor, McCaskill, 
Bennet, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and the hearing will come 
to order. Today, we are going to hear testimony on legislation 
that Senator Collins and I introduced earlier this month to 
prevent and prepare to respond to attacks against our homeland 
by weapons of mass destruction (WMD), particularly biological 
weapons.
    Our legislation has a focus on heightening security at 
laboratories that handle the world's most dangerous pathogens, 
dangerous because they are those that can most easily be 
weaponized. But, of course, the legislation is more 
comprehensive. It is as comprehensive as the Commission report 
was and as our own Committee's deliberations on this subject 
warrant.
    In December of last year, then-Director of National 
Intelligence (DNI) Mike McConnell publicly stated his 
conclusion that a WMD terrorist attack is more likely than not 
to occur somewhere in the world between now and 2013--that is 
obviously within the next 4 years--and that a biological attack 
is much more likely than a nuclear or chemical attack.
    The Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism, chaired by our former 
colleagues, Senators Bob Graham and Jim Talent, reached a 
similar conclusion and went well beyond in what I believe was 
an extraordinary piece of work documenting the problem and 
making very significant recommendations.
    The fact is from all this that it is hard not to conclude 
that we are still not properly prepared to counter the threat 
of a weapons of mass destruction attack against the United 
States and particularly the bioterrorist threat, despite 
measures taken after the 2001 anthrax attacks. In sum, and as 
the Graham-Talent Commission concluded, we are a Nation and 
world at risk.
    For anyone who thinks that in the work of this Committee 
and in discussions that go on in our homeland security 
community that we are being overly zealous, that we are perhaps 
imagining threats to America that don't really exist, one need 
only follow the media coverage over the last several days of 
the investigation and now apprehension of these people here in 
this country. People who apparently were directly connected to 
al-Qaeda and apparently were planning very significant attacks 
within our country again, apparently within the greater New 
York City area.
    So the threat is real. It goes back to, if there is a 
capital of world Islamist terrorism, it is in the mountainous 
areas between Afghanistan and Pakistan and spreads in different 
cells throughout Pakistan. They continue to want to do us harm.
    What the Commission's report convinced me again is that if 
they want to do us harm, one way they can manage to do it with 
devastation is through a biological attack, and that is why the 
legislation that Senator Collins and I have introduced based on 
the Commission report, we think is so critically important to 
the homeland security of the people of the United States of 
America.
    This legislation, which we call the Weapons of Mass 
Destruction Prevention and Preparedness Act of 2009, S. 1649, 
would provide a multi-layered approach across the full spectrum 
of prevention, preparedness, and response to this threat. Our 
legislation, as I mentioned, implements the Commission's 
recommendations and our Committee's conclusions from our 
ongoing investigation into the Nation's defense against a WMD 
attack.
    I want to briefly describe some key elements of the 
legislation and their origin in the Graham-Talent Commission 
report and our Committee's work.
    First, this bill would identify and categorize the most 
dangerous pathogens, that is, those that are easiest, that have 
the greatest potential to be turned into weapons to be used in 
a biological terrorist attack, and that therefore require 
improved security, a heightened level of security at the 
laboratories that handle them. We think that our approach 
ensures that we focus our security efforts where they are 
needed most and not burden the wider range of scientific 
research unnecessarily.
    Our Committee's interest in laboratory security was 
informed greatly by the Commission's report and the 
commissioners' testimony before our Committee last December. 
The report cited findings on inadequate security at our 
Nation's laboratories and concluded, ``when it comes to 
materials of bioterrorism, America's vulnerability may well 
begin at home.'' Through this legislation, we seek to close 
this vulnerability.
    Second, our bill would build the culture of preparedness as 
called for by the Commission by requiring a national strategy 
for dispensing antibiotics and other medicines to the public to 
respond to a biological attack. We would also expand the use of 
the Postal Service in the distribution of these 
countermeasures. Right now, we are spending billions of dollars 
to stockpile these supplies, and those are very important 
investments, but our Committee has found that we lack an 
adequate plan for distributing those supplies and 
countermeasures, quickly and efficiently if an attack occurs. 
The bill would also provide medical kits to emergency 
responders so that they can protect themselves in order to be 
able to protect us in responding quickly to a WMD attack.
    Third, our bill acts on the Commission's call for improved 
public information. It would put in place specific 
communication plans to inform the public of what to do during 
the critical moments after an attack, and we have learned from 
testimony before the Committee that communications to the 
public can have an extraordinary effect on diminishing the 
number of victims of a WMD attack.
    Our bill also requires the development of pre-scripted, 
adaptable messages, as recommended by the Commission, so that 
appropriate information can be disseminated swiftly. Such 
information would include the direction of a deadly radioactive 
or biological plume and instructions about whether it is better 
to shelter in place, stay in your home, stay in your worksite, 
or to evacuate quickly, and we think that kind of information 
could save thousands of lives.
    Fourth, the legislation would direct the Secretary of State 
to build an international biosecurity coalition by providing 
training and assistance to other countries in laboratory 
security and global disease surveillance.
    Finally, the legislation would also require the Director of 
National Intelligence to improve intelligence on WMD and 
terrorism, particularly by increasing his hiring of scientists 
and improving foreign language capabilities.
    Senator Graham, Senator Talent, you and your fellow 
commissioners and your staff have done a great service for our 
country in this report and that is why we look forward so much 
to hearing your views regarding the legislation that has 
resulted from it.
    I am also pleased to welcome again a return appearance by 
Greg Kutz, Managing Director for Forensic Audits and Special 
Investigations at the Government Accountability Office (GAO). 
Mr. Kutz and his team have spent the past 2 years investigating 
the state of security at our Nation's five most elite 
laboratories, that is, the laboratories that handle the world's 
most dangerous pathogens. In a 2008 report, and then in a 
follow-up report released a couple of months ago, GAO draws a 
disconcerting picture of the poor security regulations 
governing these laboratories and of the state of physical 
security at these laboratories, which Mr. Kutz will describe 
for us and which energize even more our consideration of this 
legislation and remedial action.
    Bottom line, we have to be direct and honest with the 
American people about the risk facing this country from a 
weapon of mass destruction attack by a terrorist organization. 
As the Graham-Talent Commission noted, ``America's margin of 
safety is shrinking, not growing.''
    Senator Collins and I are hopeful and believe that our 
Weapons of Mass Destruction Prevention and Preparedness Act of 
2009, S. 1649, will close many of the existing gaps and thereby 
grow our margin of safety.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    As the Chairman has indicated, the recent arrest of a 
terrorism suspect in Colorado is a sobering reminder of the 
continued threat to our Nation. Al-Qaeda and other terrorist 
organizations have publicly declared their intention to acquire 
and use weapons of mass destruction against the United States.
    Just last week, another media report highlighted how 
terrorists might join forces with global drug traffickers in 
order to take advantage of the traffickers' vast networks of 
tunnels, black markets, technology, and human intelligence. The 
terrorists have noted the ease with which traffickers smuggle 
illegal drugs across our borders. In the words of a former U.S. 
Embassy official in Afghanistan, ``When you get to the point 
where you can smuggle tons of drugs through one border, then 
you certainly have the capacity to smuggle in weapons of mass 
destruction or agents.''
    Clearly, this threat is real, urgent, and evolving. On 
September 8, the Chairman and I introduced legislation to help 
counter this threat. Our bill would improve our Nation's 
ability to prevent and respond to WMD attacks. It would enact 
many of the recommendations of the Commission on the Prevention 
of Weapons of Mass Destruction Proliferation and Terrorism, the 
Commission that the Chairman and I helped to establish in 2007.
    I am certainly pleased to see once again the leaders of 
that Commission, our former colleagues, Senators Bob Graham and 
Jim Talent, here today. Their report warns us that it is more 
likely than not that a weapons of mass destruction will be used 
in a terrorist attack somewhere in the world by the end of 
2013. We have repeated that warning a lot in our public 
statements, but I think we cannot say it often enough to convey 
to the public how urgent action is. The Commission's report is 
a call to action. Our bill is the answer.
    The Commission's findings reinforce the urgency felt by 
this Committee during our many hearings regarding the terrorist 
threat to our Nation. We have examined many deadly threats 
targeting the American people, and to respond to these threats, 
our Committee has led numerous reform efforts since the 
terrorist attacks of September 11, 2001. Our work has 
strengthened intelligence gathering efforts, tightened security 
at our ports and chemical facilities, and vastly improved our 
emergency preparedness.
    Nevertheless, the Commission's report provides a chilling 
reminder that the terrorists have been active, too. Nuclear 
proliferation and advances in biotechnology are giving 
terrorists new methods and new means to commit mass murder, so 
we, in turn, must continue our efforts to identify risks and to 
increase security.
    As the Commission's report explains, the most likely WMD 
threat to the United States is a biological weapon. It is 
easier to develop and disseminate bioweapons and gain access to 
lethal pathogens. Furthermore, terrorists know that a bioweapon 
can be a stealth attack. We may not immediately recognize that 
such an attack has even occurred until hundreds of people have 
been sickened or even died.
    Despite this threat, some of the world's most dangerous 
pathogens are not secure, and that includes pathogens housed in 
biological laboratories right here in the United States. The 
GAO's alarming report shows that there are deficiencies in 
basic perimeter security at facilities that house the world's 
most dangerous biological agents, diseases such as the Ebola 
virus and smallpox. The GAO also pointed out that lab 
regulation, for the most part, relies on self-policing.
    The fact is that thousands of people right here in our 
country have access to the most dangerous pathogens. More than 
400 research facilities and nearly 15,000 individuals are on 
the Select Agent List, an authorization to handle the most 
deadly pathogens. We needn't look far. The Federal Bureau of 
Investigation (FBI) has determined that a cleared scientist at 
a regulated research lab most likely carried out the 2001 
anthrax attacks.
    To counter this threat, we must increase the security at 
biological laboratories, and our bill seeks to accomplish that 
goal by identifying those pathogens that terrorists are most 
likely to use and increasing the security standards at the labs 
that handle them. A negotiated rulemaking with Federal agencies 
and research institutions at the table would develop these 
standards. This collaboration would ensure that the regulations 
that make our Nation's biological labs more secure do not have 
the unintended consequence of deterring legitimate research. In 
addition, we provide a 4-year grant program to help fund the 
security enhancements.
    Let me just mention one other part of our bill that I think 
is very important, and then since the Chairman has outlined the 
rest, I will just submit the remainder of my statement.
    The Commission also found that the Federal Government is 
unaware of some research facilities that handle less strictly 
controlled but still dangerous pathogens. To close that gap, 
our bill would require registration of those labs and facility 
security requirements that would be tiered based on the risk 
that terrorists might use a particular pathogen from a 
biological lab. That is the kind of approach that we used 
successfully in our chemical facility law, where we had a 
tiered approach with greater mandates for security to apply to 
the most high-risk facilities.
    Again, I look forward to hearing the testimony of our 
witnesses today and I am eager for us to move forward and 
advance this bill to the full Senate. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Senator Graham, Senator Talent, thank you. I am very 
pleased that your Commission, in some sense, took a good lesson 
from the 9/11 Commission--and to some extent so did Congress 
because we provided appropriations to continue your work 
because in some ways this is the most important chapter because 
unless something is done with your report, it is not going to 
matter much. So your capacity and that of your staff to 
continue to be involved in informing and advocating about this 
problem and a solution to it is gratefully appreciated.
    Senator Graham, welcome back. Good to see you.

 TESTIMONY OF HON. BOB GRAHAM,\1\ CHAIRMAN, COMMISSION ON THE 
  PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Mr. Graham. Thank you very much, Chairman Lieberman, 
Senator Collins, other Members of the Committee. We very much 
appreciate this opportunity to discuss a critically important 
dimension of our report, securing against a biological weapon 
of mass destruction.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Graham and Mr. Talent 
appears in the Appendix on page 39.
---------------------------------------------------------------------------
    I wish to say to all the Members of this Committee that it 
is our intent to issue an interim progress report next month as 
to how far we have proceeded. There are some critical words in 
that 2013 statement, which is that if we continue at the same 
pace, it is more likely than not that a WMD attack will occur 
somewhere in the world by the end of 2013, and that attack will 
be biological rather than nuclear. We have the opportunity to 
change the probabilities based on action. The reality is, our 
report was issued approximately 10 months ago. Ten months of 
our limited time to reach a position where we can reduce the 
vulnerability of the American people have now passed and we 
will be reporting as to whether we think we have used those 10 
months prudently. We expect to have a final report early in 
2010, prior to the ending of this Commission, which will be in 
February 2010.
    I can give you, I hope, the happy news that we anticipate 
that this Committee is going to get very good grades in our 
progress report. In fact, by far, you have been the most 
energetic Committee in the Congress relative to dealing with 
this critical and urgent issue, for which we are deeply 
appreciative.
    I would also like to thank Senator Akaka for his recent 
introduction of the Energy Development Program Implementation 
Act of 2009, which puts in place an Alternative Energy Peace 
Corps as was called for 31 years ago by the Nuclear 
Nonproliferation Act of 1978. We wish to also alert Senator 
Akaka that he is likely to get a good grade in our interim 
progress report.
    As we review our recommendations, while we feel positive 
about what is happening in this Committee, one of our major 
concerns continues to be, as it was with the 9/11 Commission 
and other previous commissions, the question of congressional 
reform. ``A World At Risk'' offers a recommendation which 
reads, ``Congress should reform its oversight, both 
structurally and substantively, to better address intelligence, 
homeland security, and cross-cutting 21st Century national 
security missions.''
    Today is a good example of why we made that recommendation. 
Today, in addition to this Committee, there are two other 
committees of Congress holding hearings on this very subject of 
laboratory security. When the Department of Homeland Security 
was formed, there were 86 different committees and 
subcommittees overseeing the new Department. Today, that number 
has been reduced from 86 to 82. There are signs of the 
continued dysfunction of congressional oversight identified not 
only by our Commission, but by a series of citizens' 
commissions. Congress has been appropriately forceful in 
demanding reform in the Executive Branch. We believe it is time 
to include the House and Senate in this process.
    And you should be pleased that our action plan, one of our 
action steps under congressional reform is that the Senate and 
House Homeland Security Committees should be empowered as the 
sole authorizing oversight committees for the Department of 
Homeland Security and all agencies under that Department's 
jurisdiction. I would hope that objective would be achieved and 
thus place the full responsibility where we believe it should 
be, with this Committee and your counterpart in the House.
    I use the word ``urgency.'' We think there are three clocks 
ticking. One, the Chairman has already discussed, and that is 
the 2013 clock. In addition to that preface, that assuming 
things stay as they are, that it is more likely than not that 
there will be a weapon of mass destruction used on earth before 
2013, but that probability, which we found in December 2008 to 
be somewhat greater than 50-50, can go up if time is wasted and 
is not followed by effective action.
    As Senator Collins said, our adversaries are not sitting in 
the stands waiting to see what we do. The reason that we have 
been falling behind is because as much effort as we have made 
to increase our security, it has not been as great as the 
effort our adversaries have made in order to penetrate that 
security. We think that relationship continues, and therefore, 
the probability of a weapon of mass destruction may be greater 
today than it was 10 months ago.
    But 2013 is not the only clock. There also is a 2010 clock. 
It is a nuclear clock. Every 5 years, the signatories to the 
Nuclear Nonproliferation Agreement meet to review what has 
happened in the last 5 years and to plan for the next 5 years. 
We think that the meeting that is going to occur in 2010 is of 
special importance. We have made a number of recommendations to 
improve our security against a nuclear attack. Most of those 
recommendations require executive action. The Congress has 
devoted a great deal of attention through things such as the 
Nunn-Lugar Cooperative Threat Reduction Program to increasing 
our security on the nuclear side.
    The other clock, the third clock, is the 2011 clock. There 
will be a similar meeting in 2011 reviewing the 1972 Biological 
Weapons Convention. We have made recommendations of what the 
United States should be prepared to do at that conference. One 
of our action items is the United States should reaffirm the 
critical importance of the 1972 Biological Weapons Convention 
to international peace and security by proposing a new action 
plan for achieving universal adherence and effective national 
implementation to be adopted at the next review conference in 
2011.
    The relevance of that to this Committee's action is that if 
the United States is going to present itself as being the world 
leader on issues of control of biological weapons, we need to 
be the gold standard of such actions on a universal basis. This 
legislation and appropriate implementation, we believe, would 
give us that status. So we think it is critical that this 
legislation be passed and then a sufficient amount of time 
provided for implementation, so that when we get to the 2011 
conference, we will hold the moral, legal, and policy high 
ground to encourage other countries to follow our example.
    So those are the three clocks that we think dominate this 
discussion.
    Now turning specifically to the biological threat, we see 
our adversary as having a continued energized will to use 
biological weapons and increasing capabilities to do so. These 
characteristics of the biological threat include, first, the 
fact that the development and dispersing of biological weapons 
is not expensive. In fact, it is getting cheaper and 
scientifically easier.
    Second, a biological weapon could rival or exceed the 
damage caused by an improvised nuclear device (IED).
    And third, there are fewer hurdles to creating an effective 
bioweapon than a nuclear device. Virtually all dangerous 
pathogens are available in nature. The equipment needed to 
produce a large quantity from a small seedstock and then 
weaponize the materials is readily available today on the 
Internet. The most effective delivery methods are well known in 
the pharmaceutical, agriculture, and insect control industries.
    This is not speculation. Al-Qaeda was well down the road to 
producing such weapons prior to September 11, 2001. Due to the 
ease in creating a clandestine production capability, our 
intelligence community had no knowledge of two such facilities 
in Afghanistan prior to their capture by U.S. troops. 
Facilities with more sophisticated equipment than those found 
could be in operation today, again without our knowledge.
    I would like today to focus on two of the titles in your 
legislation, Title I and V. Senator Talent will discuss the 
other titles. Title I, Enhanced Biosecurity Measures in U.S. 
Laboratories, responds to our recommendation in ``World at 
Risk.'' Certain principles animated the section of our report 
dealing with laboratory security. We are concerned about the 
proliferation of high containment labs, which were not only 
unregulated, but often unknown to the government. And just this 
week, the Government Accountability Office has issued yet 
another report entitled, ``High Containment Laboratories: 
National Strategy for Oversight Is Needed.'' We have been at 
this business at least since the anthrax attack in October 
2001, 8 years ago, and still a national strategy is not 
available.
    The fragmentation of government oversight among agencies, 
the need for a thorough review and update of the Select Agent 
programs, and the importance of regulating labs in a way that 
did not discourage robust scientific research in the United 
States are all reasons why we give the issue that you have 
labeled as Title I such primacy.
    Enhanced biosecurity measures should improve security, 
streamline oversight, and focus our resources on the real 
risks. By correctly applying risk management principles, the 
United States can increase security without impeding science or 
critical U.S. industries.
    The legislation calls for the establishment of Tier I 
pathogens, which would be those that could be most readily 
weaponized and which would receive the most rigorous level of 
review. We would also recommend that there be a Tier II and 
III, each of which would represent a somewhat declining level 
of risk with an appropriate level of regulation relating to 
that risk.
    Title V of the legislation deals with the issue of citizen 
involvement. We believe that it is critically important that 
the American people feel a greater sense of engagement in this 
issue. We strongly believe that a well informed, organized, and 
mobilized citizenry has long been one of our Nation's greatest 
resources. An engaged citizenry, in fact, is the foundation for 
national resilience in the event of a natural disaster or a WMD 
attack.
    I recently visited with intelligence, military, law 
enforcement, and parliamentary officials in the United Kingdom 
and they unanimously said there had never been a WMD or other 
terrorist plot in the United Kingdom which had been broken 
without significant citizen involvement. We believe there are 
models to be followed.
    I will present for the record a letter from the Business 
Executives for National Security (BENS),\1\ a nonpartisan 
organization with a 27-year history of facilitating public-
private collaboration. This includes 7 years of building 
security and resilience-focused partnerships at the State and 
local level. This organization has been active in many places 
in the country. It has been particularly effective in its work 
in Iowa, which occurred approximately 18 months before the very 
devastating floods of last year, and while that was natural, 
not a manmade disaster, the benefits of having developed such a 
private-public partnership were in evidence.
---------------------------------------------------------------------------
    \1\ The letter submitted by Mr. Graham appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    In conclusion, we commend you for introducing this 
extremely important piece of legislation and we look forward to 
participating in a robust discussion on Capitol Hill and with 
the Administration and the stakeholders as we move towards 
passage and implementation.
    We stand ready to help where we can to promote this very 
important stride for our national security. Thank you.
    Chairman Lieberman. Thanks very much, Senator Graham. That 
was very helpful testimony. I particularly appreciate the three 
clocks that are ticking because you help us put our work on 
this in the context of ongoing events that have dates that are 
associated with them.
    I don't want to take a lot of time on this, but I also 
appreciate your going back to the question of congressional 
reform of the handling of homeland security issues. Senator 
Collins and I, and this Committee, are proud of the work that 
we did with the House on the 9/11 Commission Report because we 
really put into legislation almost every one of the 
recommendations that the 9/11 Commission made to do everything 
we could to avoid another September 11, 2001.
    But the one that we suffered a total and embarrassing 
failure on was the attempt to reform us. We are very good at 
reforming the Executive Branch, but this gets into turf battles 
here. I appreciate your mentioning it. At some point, you and 
Senator Talent and Members of the Committee ought to talk about 
how we could try this again.
    We appreciate that you say that the Homeland Security 
Committee should clearly have jurisdiction here, but it is 
really the question that Tom Ridge first raised, which was he 
was spending too much of his time as Secretary of Homeland 
Security going to too many committees and subcommittees and 
they were redundant. It wasn't that he was avoiding oversight.
    So, anyway, I appreciate your mentioning it. Hope springs 
eternal. Senator Collins and I are both very stubborn people 
and we are not going to give up on this, so you encourage us to 
be even more stubborn.
    Senator Talent, thanks for being here. Thanks for all your 
work, and we welcome your testimony now.

 TESTIMONY OF HON. JIM TALENT,\1\ VICE CHAIRMAN, COMMISSION ON 
THE PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Mr. Talent. Thank you, Mr. Chairman, and just a follow-up 
on that. Not only does the redundant oversight consume too much 
of the executive's time, but as we point out in the report, 
oversight done properly can be hugely helpful. This Committee 
is a perfect example of that. But you can't do it properly when 
you have dozens and dozens of different committees doing it. So 
we would not only stop doing something that is interfering with 
the Executive Branch, but Congress could really play an even 
more effective role if we got the oversight correct.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Talent and Mr. Graham 
appears in the Appendix on page 39.
---------------------------------------------------------------------------
    I have a written statement which I will submit for the 
record and then just make a few comments.
    Chairman Lieberman. Good.
    Mr. Talent. I have to echo and want to echo what Senator 
Graham said about this Committee's work. The biggest enemy I 
think we confront in this is inertia, and to defeat inertia, it 
takes tremendous leadership and perseverance--stubbornness I 
think you just called it--and this Committee has shown that 
kind of perseverance from the day we issued the report. And 
really, in fairness, although everybody has been supportive--I 
don't think anybody on the Hill has not supported our report--
but you are the only ones who have done that, which is the 
reason why we are here with this bill today. So I want to 
congratulate you on that.
    I think part of the reason is that the Committee 
understands and keeps in front of it the strategic nature of 
this threat. I find in the public and even within government, 
it is just so easy to slip into the idea that because the 
enemy, or the people that we are opposing in this, don't 
represent a first world economy, don't even have a nation-
state, that therefore they can't really be that dangerous.
    But I think they have a more accurate strategic view of the 
world than we do. They understand that the world is a matrix of 
systems that are very important to not just the quality of 
life, but the ability of the average American, and person 
throughout the world to live, and that those systems are easy 
to attack particularly using asymmetric weapons. They 
understand the concept of asymmetric weapons very well.
    That is one of the reasons why what the intelligence 
community was telling us, what the expert opinions, the actual 
evidence we saw, the development of this threat to me was so 
plausible because it is logical for them to be trying to get 
weapons of mass destruction given their strategic view of the 
world. I would be, in a way, surprised if they weren't trying 
to do so. And you all know we have evidence that they think it 
is a priority for them.
    So this Committee gets that. I think part of our job is to 
try and make certain everybody else does.
    The other thing that is so important is to understand that 
we have to do something, even at the risk that doing something 
may produce some side effects that we didn't intend, rather 
than do nothing out of fear of the side effects. We have to 
move forward. If we don't do something--I mean, the current 
trajectory of risk does not favor us, so we have to disturb the 
inertia and move forward, and you all understand that. And 
also, it is across a broad front. It isn't any one thing. It is 
a series of incremental things that need to be done at the same 
time, and I think the bill represents that and I am very 
strongly supportive of it and appreciative of your leadership.
    Just a few individual comments with the time that I have, 
and this is reflected in my statement. The bill addresses the 
issue of how we distribute medical countermeasures, which is 
hugely important. I think the bill is going to help achieve 
progress in that area. But I just want to remind the Committee, 
we have to have the medical countermeasures to distribute, as 
well. In essence, we have to have the vaccines and the 
antibiotics to distribute or the distribution system doesn't do 
us any good.
    There are a couple of programs that have been established 
to accomplish that, Biomedical Advanced Research and 
Development Authority (BARDA) and Project BioShield, to 
encourage investment or to provide for government investment in 
the development of these vaccines. We want to point out that 
the Office of Management and Budget (OPM) seems to have gotten 
it into its institutional head to try and cut those programs. I 
understand that they are there to watch the budget, and that is 
a good thing, but those programs are hugely necessary and I 
would ask the Committee to watch for it, and those of you who 
are also appropriators to particularly watch for that.
    And I will just add one thing. There is a pretty direct and 
proven connection between funding development of vaccines and 
actual vaccines. The scientific community knows how to produce 
vaccines for these kinds of pathogens if they have the money to 
do it. So we really will get something for this investment. We 
will get the vaccines and anthrax and the medical 
countermeasures, etc.
    Second, I really want to applaud the Committee for taking 
on the workforce issue in the bill, how we can plus-up the 
personnel we have who have language skills, who have knowledge 
of nuclear issues and biological issues. We found all 
throughout the government people sounding the warning that we 
don't have enough of those people already. Unfortunately, there 
is a cohort of people in the government about 5 years away from 
retirement who possess a lot of the knowledge that we have, and 
we really have got to find people to take their place and we 
are not replacing them.
    And again, I think a big part of the problem, Mr. Chairman, 
is the fear of doing something because we have these security 
regulations in place so that we are so worried about hiring 
somebody who might be off in some respect that we don't hire 
anybody. We have to--particularly with language skills. It 
takes years and years in many cases to process people through 
security so that we can hire someone. Well, people aren't going 
to wait around necessarily for years to get hired. So this is 
an issue that needs to be addressed and the bill addresses 
that.
    I am particularly pleased at how the bill addresses the 
issue of citizen awareness and response, which I think is a 
huge untapped resource in this whole field, though not 
completely untapped. You all, I am sure, have talked with the 
authorities in New York City, for example, where they do a much 
better job of this. There is a lot of awareness there. The 
public is cooperating. That just adds to our ability to deal 
with this.
    I really like the medical kits idea that you have put in 
here and I hope there is a way, and believe there is a way, to 
work with that so the general public can begin accessing it, as 
well. I think it is a hugely important idea that you have.
    And finally, I will just close with one thing. The Chairman 
mentioned that there are people who tend to discount the danger 
of a biological attack. The Department of Defense, as you all 
know, had biological weapons programs in the 1950s and 1960s. I 
think it ended in the Nixon Administration. President Nixon 
just decided we weren't going to pursue them anymore. And they 
did a number of important tests on the efficacy of bioweapons, 
and this is using 1950s and 1960s technology. I just suggest if 
the Committee has not had a brief on those, ask the Department 
of Defense--I don't think they have ever studied them and put 
it all together in one brief, but it is a real eye-opener.
    It was effective even then. And people who think that this 
is not a weapon that this will be effective against civilian 
populations just need to look at those studies and what we 
ourselves were doing. Now, as a battlefield weapon, it is 
questionable, because a lot of them don't take effect quickly 
enough in battlefield terms. But as a way of attacking civilian 
populations, it is extremely plausible and very effective, and 
I am grateful that you have a strong omnibus bill to deal with 
it.
    Chairman Lieberman. Thanks very much, Senator Talent. Very 
helpful testimony.
    Mr. Kutz, welcome back. Thanks for all your service. A 
somewhat different look at this problem, but directly relevant, 
and we welcome your testimony now.

 TESTIMONY OF GREGORY D. KUTZ,\1\ MANAGING DIRECTOR, FORENSIC 
      AUDITS AND SPECIAL INVESTIGATIONS, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Kutz. Mr. Chairman and Members of the Committee, thank 
you for the opportunity to discuss biosafety laboratories. 
Today's testimony highlights the results of our assessment of 
perimeter security for Level 4 labs. My testimony has two 
parts. First, I will discuss our findings, and second, I will 
discuss our recommendation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kutz appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    First, we found significant differences in perimeter 
security at the Nation's five Level 4 labs. These labs handle 
the world's most dangerous agents and toxins that cause 
incurable and deadly disease. As requested by the Centers for 
Disease Control and Prevention (CDC), our report and my 
testimony do not specifically name these labs.
    The poster board which is on my right,\1\ and for Senator 
Bennet, you should have this in your packet since you can't 
see, if you have got it----
---------------------------------------------------------------------------
    \1\ The chart referenced by Mr. Kutz appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    Senator Bennet. I have it. Thank you.
    Mr. Kutz. The poster board here on my right shows the 
results of our assessment of controls at these five labs. The 
black circles indicate the controls in place during our 2008 
assessment. As you can see, three of these five labs had all or 
nearly all of the 15 key controls that we evaluated. 
Specifically, what we refer to as Lab B had all 15 controls in 
place, while Lab A had 14 and Lab D had 13.
    The presence of multiple layers of security at these three 
labs reduces the risk of unauthorized access to the labs. 
Examples of controls in place at all three of the labs include: 
A blast stand-off area between the labs and perimeter barriers; 
barriers to prevent vehicles from approaching; a command and 
control center; roving arm guard patrols; and x-ray screening 
at building entrances.
    The poster board also shows that in stark contrast to these 
three labs, the other two labs had little to no perimeter 
security. Specifically, what is shown as Lab C had only three 
of the 15 controls in place, while Lab E had four. Examples of 
controls that these two labs did not have in place include: A 
blast stand-off area between the lab and perimeter barriers; 
barriers to prevent vehicles from approaching; a command and 
control center; x-ray screening at building entrances; and 
vehicle screening.
    Moving on to my second point, based on our 2008 assessment, 
we recommended that CDC take actions to enhance perimeter 
security at these Level 4 labs. CDC agreed that perimeter 
security was important, but noted that the differences you see 
in security here were the result of risk-based planning. They 
also questioned whether the 15 controls that we looked at were 
relevant and appropriate for these labs. One year later, in 
response to our second report, CDC told us that they will 
consider our recommendations in developing future security 
plans.
    We understand the perimeter security is only one piece of 
the overall security picture and that a comprehensive approach 
to Select Agent security should be taken. However, it is 
discouraging that CDC would question the relevance of basic 
controls, such as blast stand-off areas, intrusion detection 
systems, x-ray screening at building entrances, and visitor and 
vehicle screening.
    Despite CDC's limited actions in the last year, three of 
these labs have enhanced their perimeter security. For example, 
as shown by the red circles on the poster board, Lab C now has 
a command and control center, camera coverage of exterior lab 
entrances, and visitor screening. Other initiatives underway at 
this lab would leave them with eight of the 15 controls in 
place and two others partially in place.
    Also, as you can see, Lab E made improvements and now has 
six of the 15 controls in place. Further, Lab D recently 
informed us that they have made improvements and have all 15 of 
the controls in place.
    In conclusion, we are encouraged that three of these labs 
have made improvements in perimeter security in the last year. 
We believe that an active and layered system of security can 
prevent unauthorized access to these labs. This is particularly 
important as several new Level 4 labs are either operating 
today or will be in the near future.
    Mr. Chairman, this ends my statement and I look forward to 
your questions.
    Chairman Lieberman. Thanks, Mr. Kutz. That was your normal 
good job from you. We will do 7-minute rounds of questions.
    Let me start with you, just to follow up what you have 
said. This is very disappointing, that two of the five labs 
with the most dangerous pathogens, meaning that they are the 
most likely to be weaponized, even on their own, still have 
great gaps in their security. I am particularly disappointed in 
what you say is the nonchalant attitude--I am characterizing it 
that way--of the Centers for Disease Control about this. First, 
how do you explain that reaction by CDC?
    Mr. Kutz. I can't explain the reaction by CDC with respect 
to perimeter security because I believe that these controls we 
are talking about are fairly basic and I think most security 
experts would agree that they would reduce the risk of 
unauthorized attacks on these labs So I can't explain that.
    I can explain the differences, to some extent. If you look 
at, for example, I think Lab B there, they have additional 
requirements outside of the CDC for security at those labs. So 
the actual base requirements that all three met, look at that, 
all three met the baseline requirements, which is hard to 
believe. But actually, these other labs, like Lab A and B, had 
other requirements from the Department of Defense (DOD), the 
National Institutes of Health (NIH), and the Department of 
Health and Human Services (HHS). So what you saw there were 
more stringent requirements from other parts of the Federal 
Government than for the Select Agent program.
    Chairman Lieberman. So Lab C and Lab E were the only two of 
the five that were only part of the Select Agent program under 
CDC?
    Mr. Kutz. Yes, Lab C and Lab E.
    Chairman Lieberman. And those were the ones that are really 
lacking. Well, I will state my own intention, and maybe the 
Committee can do it, to express our displeasure to CDC about 
this state of affairs, because these two labs, which have very 
dangerous pathogens in them, are at risk, and when they are at 
risk, so are we.
    Let me go to Senator Graham and Senator Talent and ask a 
few baseline questions. We are particularly focusing, and I 
think for good reason, based on your report, on security at the 
laboratories. But let me step back and ask you to answer a 
question I know you considered. Accepting your premise that a 
WMD attack is probable somewhere in the world in the next 4 
years and that it is more likely to be biological than nuclear, 
I am going to mention three ways in which the components for 
such an attack against the United States could be brought 
together.
    One obviously is to manufacture the actual biological agent 
for attack elsewhere in the world. As you said, Senator Graham, 
we know that there were two active laboratories in Afghanistan 
that al-Qaeda was running.
    A second, I suppose, would be to, going to Mr. Kutz's 
point, to steal pathogens from an existing laboratory 
supervised by the government, well or not so well, and take it 
somewhere else, to a secret location, and develop it into a 
weapon.
    And the third--of course, this is the case we had with 
anthrax, where the Department of Justice determined in 2008 
that Army biological researcher Bruce Ivins was the sole 
perpetrator of the 2001 anthrax attacks--is for somebody within 
the labs to be compromised, I mean, basically to be doing 
conversion to weapons within the labs.
    We are focused here on the security of the labs. I want you 
to talk a little bit about your evaluation and the Commission's 
of the probabilities here, or is it impossible to do that? From 
which of the three courses I have mentioned is it most likely 
that a terrorist intending to do a biological attack against 
the United States would get the biological materials?
    Mr. Graham. The Commission did not attempt to make such an 
assessment. I will be sufficiently either indiscrete or 
courageous to try to do so. I would suggest it is the third 
option. That is the only one to which we have been exposed. 
That is, a scientist inside the lab----
    Chairman Lieberman. Right.
    Mr. Graham [continuing]. Who had passed a plethora of 
security background checks and then takes this material. He 
weaponized them in a crude manner such that they could be sent 
through the mail and ended up killing five people and creating 
significant disruption in our lives, including those of us who 
worked in these buildings.
    Chairman Lieberman. Right.
    Mr. Graham. So I think, while all three of those are 
potentials that need to be protected against, of the three, the 
more likely is the one that has already occurred, which is the 
rogue scientist.
    Chairman Lieberman. I appreciate your directness in that, 
and that is the evidence we have. So not to say that there is 
any sole path to this. Obviously, better perimeter security 
would not impact that individual or would not stop that 
individual. And, of course, in the case of Mr. Ivins, 
presumably, he went through all the personal security checks. 
What more can we do to deter or discover that kind of 
exploitation of the system for anti-American purposes?
    Mr. Graham. Well, as you know, the Department of Homeland 
Security has a program which is specifically targeted at the 
rogue scientist. That in itself has been a source of some 
controversy because it has resulted in what many would describe 
as an overly bureaucratic and delayed process to get people 
cleared to work in our scientific laboratories.
    While security is our principal concern, we are not unaware 
of the fact that the vast majority of what goes on in these 
laboratories is very positive, contributing to our health. 
Therefore, we don't want to make these centers of creativity 
and innovation so entangled with restraints that they can't 
carry out their basic mission.
    I wish, Mr. Chairman, I could give you five specific things 
that we could do to increase the confidence in the individuals 
who are working in the laboratories. I can't do so, but I think 
the kind of recommendations that you are making for 
comprehensive oversight of these facilities, while this report 
focuses on the physical aspect, that comprehensiveness of 
oversight is also needed for the personnel issues, that would 
lead us to some thoughtful and constructive proposals to avoid 
another Bruce Ivins.
    Chairman Lieberman. I appreciate that answer. Senator 
Talent.
    Mr. Talent. Yes. I would add a couple things, Mr. Chairman. 
I agree with Senator Graham, by the way, that if I had to 
guess, that they would get it from a lab, because as we 
emphasized in the report, they will likely try to recruit 
bioscientists, life scientists, and the people that they are 
going to try and recruit are going to be the people who are 
active in the field, which means they are working someplace. 
And it just seems to me logical that the first thing such a 
person would try and do is to see if they could get the 
material from the lab where they are working. So I think that 
is a string of assumptions, but I think they are reasonably 
plausible.
    I would say three things that we can do, agreeing with what 
Senator Graham said--but what the bill is doing is hugely 
important. I mean, for the first time, we are going to have 
comprehensive rulemaking in which all the various agencies are 
involved.
    Chairman Lieberman. Right.
    Mr. Talent. That is going to promote, I hope--I think this 
is very important--a culture of cooperation within the private 
scientific community and the agencies who are responsible for 
this. So they are going to begin talking, not that they are not 
now, there is a task force, I know, but more systematically and 
formally really talking about this, and you are going to see 
better regulation and better procedures growing out of that, 
almost in an evolutionary way. I think it is one of the 
geniuses of the bill.
    And I hope what that does, then, is create within the 
scientific community a real acceptance of the need for an 
enhanced culture of security. I think there is still 
resistance----
    Chairman Lieberman. Sure.
    Mr. Talent [continuing]. But a sense of, look, we really do 
have to be aware about what the person next to us is doing 
because that is how you get somebody like Ivins. If somebody is 
next to him saying--now, it is hard, because as they pointed 
out, you can just put your pencil down and get a pathogen, and 
this is hard, but I think these are incremental steps that will 
help.
    And then I do want to point out again the importance of 
having an effective system for producing and distributing 
countermeasures, because the better we are at responding, the 
more we tend to deter an attack. The Chairman and I made a 
decision when we started up the Commission that we would focus 
on prevention rather than remediation because you can't do 
everything, but this is an area where the two are linked 
because the better you remediate, the more likely you are to 
prevent.
    Chairman Lieberman. Correct. That is a form of deterrence. 
I appreciate your answer. It seems to me, also, in this matter, 
we are dealing again with a tension that we have dealt with 
from the beginning of America, which is between security and 
liberty. This is in a very specific way. Obviously, we don't 
want to discourage the extraordinary advances that come from 
the liberty of research and innovation, but on the other hand, 
we have got to create surveillance monitoring and measures to 
try to ferret out anybody who has gone astray and gone wild.
    I do think that the idea that we share, and it is in the 
bill, of tiering the regulation is important and perhaps sends 
a message to the scientific community, too. We are trying to 
isolate here for the most intense scrutiny the relatively small 
number of labs where the highest risk pathogens are, the ones 
that can be turned most easily into the most devastating 
weapons, and, frankly, to let up a little on surveillance at a 
lot of the other labs where the experts judge that the risk of 
conversion to weapons is less serious, and I think that may be 
a good balance as we go forward.
    Yes, Mr. Graham.
    Mr. Graham. Mr. Chairman, if I could just offer a couple of 
rays of hope, there has been a fairly distinct divide between 
the nuclear scientists and the biological scientists. The 
nuclear scientists largely came in existence after the first 
two nuclear weapons were actually utilized and, therefore, 
there has been from the beginning this culture of security. It 
was clear that the mushroom cloud was a potential outgrowth of 
nuclear technology and, therefore, security was an assumed part 
of the scientific community. We have had no similar iconic 
figure for the biological side. So we can take some lessons 
from how the nuclear scientists have managed this joint issue 
of innovation and creativity versus appropriate security and 
maybe apply those lessons to the biological.
    Chairman Lieberman. Good point.
    Mr. Graham. A second thing, some of the most scientifically 
committed universities in this country, over 20, have now 
formed a coalition to work precisely on this issue of the 
culture of security within our university setting, and I 
commend those institutions for their initiative. I hope that 
what they are doing will not only be successful in the member 
institutions, but will help set a standard for other higher 
education institutions that are engaged in this work, as we 
have seen recently, sadly, from your alma mater----
    Chairman Lieberman. Yes.
    Mr. Graham [continuing]. The potential of consequences of 
inappropriate action by people in these laboratories.
    Chairman Lieberman. Thank you, Senator Graham. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Kutz, Senator Graham's last comment is actually a good 
lead-in to a series of questions that I want to ask you because 
he talks about that nuclear scientists have a culture of 
security. That is their focus and that has not always been the 
case with scientists who are dealing with biological agents.
    I suspect that the cultural differences are also reflected 
in the regulators. I don't think that it is a coincidence that 
labs that were doing work for DOD had higher security than labs 
that were under the sole jurisdiction of the CDC. Did you find 
in dealing with the CDC that there was more focus on biosafety 
than on security?
    Mr. Kutz. Yes, there was more of a focus on safety, which 
isn't a bad focus, by the way, but there were no people that 
had actual security backgrounds that were doing the oversight 
and that were going out and approving the actual plans for 
security at these five Level 4 labs. So that clearly was 
something that we noted.
    Senator Collins. And indeed, it is my understanding that 
the 15 standards that you used as an assessment were developed 
by the GAO, is that correct? In other words, did the CDC have a 
similar set of mandatory standards that needed to be met?
    Mr. Kutz. No. Theirs were more guidelines and they were 
much easier to meet. Ours were more stringent, more specific, 
and ours were more consistent with what you saw from DOD, for 
example.
    Senator Collins. And when your report was issued a year ago 
and found such serious deficiencies in two of the labs that 
answered to the CDC, did the CDC order security improvements at 
the two labs?
    Mr. Kutz. No. They tried to explain that what we saw was 
actually part of a plan that was resulted from risk-based 
analysis. So they tried to actually rationalize or justify it 
rather than say that something needed to be done.
    So as I mentioned, the three labs that have made 
improvements since then, they did it all on their own. There 
was no government assistance with respect to that. It was the 
labs themselves.
    Senator Collins. That is really worrisome to me. It seems 
to me that when you went to the CDC a year ago and showed such 
glaring deficiencies in just basic security measures, that the 
agency should have acted immediately. And are you telling us 
that the improvements that were made, such as they are, were 
initiated by the labs themselves, not as a result of any order 
or even direction by the CDC?
    Mr. Kutz. Correct. The six red dots you see on that board 
were all self-initiated by Labs C and E, and as I mentioned, 
Lab D also went from having 13 to 15, and that was on their 
own.
    Senator Collins. And I think that demonstrates why it is so 
important that the Department of Homeland Security be involved 
in the regulation, because that Department, as one of the 
Commissioners, Robin Cleveland, mentioned to us previously, has 
as a focus and a mission of homeland security. It is startling 
to me that you could present the regulator with the report 
showing such serious problems and no action was taken, but that 
is what happened.
    Mr. Kutz. That is correct. That is what happened.
    Senator Collins. Thank you.
    Senator Talent and Senator Graham, I want you both to 
respond to this issue. We have talked a lot this morning about 
the worry that terrorists could gain access to pathogens at 
these biolabs and we have talked about the possibility of the 
rogue scientist. But isn't there also a concern that these labs 
may contain specialized equipment and technology that could be 
valuable to terrorists in weaponizing a pathogen? In other 
words, it is not just the people. It is not just the biological 
agents. It is the specialized equipment, as well, is it not? 
Senator Graham.
    Mr. Graham. It is, and one of the many strengths of your 
legislation is to recognize that and begin the process of 
registering and providing some control over this equipment. It 
goes beyond equipment which is capable of weaponizing. It also 
relates to equipment which can actually be used to produce 
pathogens. Most of these high-risk pathogens occur in nature. 
Anthrax, for instance, is the product of decaying cattle, 
primarily. The word ``anthrax'' is a Russian word that means 
Siberian boil, because the first place anthrax was discovered 
was dead cows in Siberia. But there are other pathogens which 
are now being man-created and the equipment to do so is also a 
security risk. Your legislation would provide for some 
registration and control over who has access to that equipment.
    Senator Collins. Thank you. Mr. Talent.
    Mr. Talent. I really agree. I think it is one of the major 
steps forward in the bill, is the provision of the registration 
authority and the focus not just on the pathogen, but on the 
equipment that could be misused. Right now, if the lab is not 
handling something on the Select Agent list, then the 
government just does not know anything about them. We do not 
know who is out there, and that, to me, is irresponsible.
    And I think it should be done in a way--and this is very 
important, we believe--that whoever is directing that lab who 
is now going to have to register because of the equipment 
doesn't think of it as this is another dumb government thing I 
have to do. I will just fill this out as quickly as I can, send 
it in, and hope they never contact me again and hope I never 
have to do anything ever again having to do with this subject.
    I hope that this is done in such a way--and you all, by 
providing for negotiated kind of rulemaking, I hope will 
achieve that--where that person says, you know what? Maybe this 
is something I need to not just comply with in the most bare 
minimum way possible but take an interest in. Maybe I need to 
start reading some industry things about this and be a little 
more concerned and circulate something to my employees about 
this because this is something I need to care about. That is 
the attitude we want out there, and the way to get it is the 
cooperative kind of rulemaking which you provide for in the 
legislation.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Akaka, and then Senator McCaskill.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you very much for holding this hearing and I want to add 
my welcome to Senator Graham, Senator Talent, and Mr. Kutz as 
you give your testimony and commitment to increasing our 
ability to counter WMD threats to our national security.
    I am pleased that President Obama has implemented some of 
the Commission's recommendations. He has appointed a 
coordinator for WMD Terrorism and Proliferation, and mandated 
greater integration between the National Security Council and 
the Homeland Security Council. And still more can be done. It 
is important that we continue to focus on the greatest threats 
to our national security. We should remember that the 
Commission warned that the terrorists' use of WMD somewhere in 
the world is more likely than not by the end of 2013.
    All levels of government, along with the private sector and 
individual citizens, really need to work in concert to provide 
capabilities and readiness to prevent catastrophic attacks and 
to limit the consequences if such attacks occur. Senators 
Lieberman and Collins have taken a strong leadership role in 
introducing the Weapons of Mass Destruction Prevention and 
Preparedness Act and I look forward to working with them on 
this bill.
    Senator Graham, I recently introduced the Energy 
Development Program Implementation Act, which would put in 
place a mechanism to implement Title V of the Nuclear 
Nonproliferation Act of 1978. Under my bill, the United States 
would work with developing nations to foster non-nuclear 
alternative energy sources, which would provide economic and 
environmental benefits and also reduce the risk of nuclear 
technology ending up in the wrong hands.
    Your Commission's World at Risk report recommended 
implementing this program. You also recommend actions by the 
Executive Branch. Are there other recommendations about nuclear 
proliferation and terrorism from your report that this 
Committee should consider?
    Mr. Graham. Yes. We are in what has been referred to as a 
nuclear renaissance. After 30 or 40 years in which there was 
relatively little development of new nuclear capabilities, 
particularly for civilian purposes, suddenly, a number of 
countries, including the United States, are either considering 
expanding our current base of nuclear capability and some 
countries which have never had nuclear before are expressing 
interest.
    The fact that the Congress is now considering a number of 
what are referred to as 1-2-3 agreements, which are the 
agreements required by the Atomic Energy Act for the United 
States to cooperate in civilian nuclear with a foreign country, 
is itself illustrative of this nuclear renaissance.
    It does pose some significant challenges. Let me just 
mention a few. One, the countries that have never had nuclear 
power before, therefore, have no system of regulatory standards 
or enforcement capabilities, either for safety or security. It 
is going to be a particular responsibility of the international 
community, particularly the International Atomic Energy Agency 
(IAEA), which is the regulating institution for the 
Nonproliferation Treaty, to see that those new entrants into 
the nuclear club do so under safe and secure circumstances. We 
have a number of recommendations for strengthening the 
authorities of the IAEA for this and other purposes.
    Second, in our report, we suggest that the United States 
should be economically neutral on the expansion of nuclear 
power for civilian purposes, specifically, that we should not 
subsidize nuclear expansion in foreign countries. If a foreign 
country decides based on its own analysis that nuclear is an 
appropriate part of its energy construct, we should honor that, 
but we shouldn't subsidize it, thereby creating incentives for 
further expansion of nuclear with the almost inevitable 
expansion of the potential of diversion of that nuclear to 
military purposes.
    Senator Akaka. For too long, the Federal Government has not 
invested enough in supporting foreign language competency, as 
was mentioned earlier. This week, the Government Accountability 
Office will be releasing a report about serious proficiency 
gaps in languages critical to our national security at the 
State Department.
    Earlier this year, I introduced the National Foreign 
Language Coordination Act to put in place a national strategy 
for foreign languages because Americans need to understand 
other languages and cultures to ensure our national and 
economic security. I am encouraged that the bill we are 
considering today has a provision for an intelligence community 
language capability strategy.
    Do you believe this provision is sufficient, or is a 
broader national strategy for foreign languages needed?
    Mr. Talent. I think the provision in the bill is a really 
good step, Senator, and this is one of these areas where I 
think there is a limit to what Congress can do. This really 
requires vigor and energy in the executive, somebody taking 
this and running with it and taking the responsibility for 
making certain decisions.
    Part of it is that we don't have the skills out there. Part 
of it is that we are not vigorously pursuing the people who 
have the language skills. And part of it is that we have set up 
requirements that really discourage those people from joining 
up. I mean, somebody who has the kind of language skills and 
cultural knowledge, for example, of Iran probably has had some 
connection to Iran. So if that is a disqualifier from a 
security standpoint, then you are never going to be able to 
recruit anybody.
    And so there are huge, national communities around the 
country that want to help out, that have people who know how to 
help out, and we are not letting them help out. I just think it 
is going to take somebody high enough up to make a decision to 
say, look, we are going to start accessing these people. If 
there is some fallout or some baggage, I will bear it. Let us 
just go and do it. I don't think that decision has yet been 
made, but I don't know what you all can do other than what you 
are doing in this bill. They are going to have to take it up 
and run with it. You can do oversight and keep pushing, but 
this is an executive thing, I believe.
    Mr. Graham. Yesterday, I attended a briefing and the 
conditions of the briefing are such that I can't say who was 
the principal presenter, but I can say it was a very high 
person in our U.S. military, and he made the observation that 
in dealing with the kind of warfare that we are engaged in in 
Afghanistan, that intelligence is the very pointy end of the 
spear. You are trying to isolate the bad people from the 
civilians, because if you don't, you will end up harming 
civilians and therefore severely damaging your ability to carry 
out the mission. Intelligence is the key to being able to make 
that and a set of other good judgments.
    He went on to say that good intelligence is predicated on 
knowledge, that you can't provide good intelligence if you 
don't have a knowledge of the history and culture of the area 
in which you are operating, if you don't have a knowledge of 
the language that the people speak, or if you don't have some 
understanding of the demographic composition of the area in 
which you are operating.
    So I think what you are pointing to is we are going to 
build up the knowledge base which will then make it possible to 
have superior intelligence capabilities. So I commend you for 
your prescience in identifying this as an important national 
security issue.
    Senator Akaka. Mr. Chairman, my time has expired.
    Chairman Lieberman. Thanks, Senator Akaka. Thanks for those 
thoughtful questions. Thanks for the legislation you 
introduced.
    Senator McCaskill, let me thank you for two things. First, 
for deciding to cosponsor the legislation that Senator Collins 
and I have introduced to prevent a WMD attack, and second, 
thank you for the work you did in 2006 to free up Jim Talent so 
he could do the great service he has done for our country as 
Co-Chair of this Commission. [Laughter.]
    Mr. Talent. I retain a few mixed emotions about that. 
[Laughter.]
    Chairman Lieberman. You look pretty good. You look pretty 
happy.
    Mr. Talent. I am grateful for Senator McCaskill's presence 
here and wonder if she took the late flight in. I didn't see 
you on it----
    Senator McCaskill. No. Actually, I did the 4:30 alarm this 
morning. I rolled in on the early flight.
    Mr. Talent. Yes. Your two choices of coming in from 
Missouri to make a Tuesday morning hearing are not either one 
of them very palatable.
    Chairman Lieberman. So there are opportunities for service 
after the Senate and you have done that in an exemplary 
fashion. Senator McCaskill.
    Senator McCaskill. And Senator Lieberman, let me just say, 
to follow up on your comments, I think he is doing such great 
work there, I think it is very important he continue in that 
work for the long haul. [Laughter.]
    Chairman Lieberman. Got it.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. I want to thank both Senator Graham and 
Senator Talent for their work in this area. I think that both 
of you understand this place very well and you understand what 
works and what does not. I think you are being very kind to use 
the word ``inertia,'' Senator Talent, because I think it is a 
little worse than inertia. We don't have a whole lot of people 
at the press table over there today. We don't have the best 
attendance that we would hope for in this Committee hearing 
this morning.
    And partially that is about the attention span of this 
place and what drives it. Right now, we are in the midst of a 
very heated and drawn battle over health care reform, and in 
those moments, it is really hard to get people's attention 
around here on anything else.
    I think the bill that has been introduced, which I am 
pleased to be able to cosponsor with Senator Collins and 
Senator Lieberman is incredibly important to the security of 
this Nation and I stand ready to do whatever I can to fight the 
fact that no one is giving it much attention right now, talking 
about this important topic. If this hearing had occurred in 
2002, we would have had a line outside. But now, it has drifted 
away from the front of people's consideration and therefore we 
are going to have more difficulty getting it across the finish 
line. But I know with the leadership of this Committee, 
particularly our Chairman and Ranking Member, we can do it.
    Let me ask you, Mr. Kutz, without going into specifically 
where the labs are located, was there any connection between 
the perimeter security that GAO found, between those labs that 
were government-owned and those that were privately-owned?
    Mr. Kutz. The two labs that had the weakest security were 
not-for-profit and university, so they were private. Two of the 
best were government operated and owned.
    Senator McCaskill. And is the sixth biosafety Level 4 lab 
that has just recently become operational, is that a private or 
is that a government? Do you guys know?
    Mr. Kutz. I know it is in Montana. I don't know which.
    Senator McCaskill. The reason I ask that is it seems to me 
that, as much as I don't like it in some instances, it would be 
fairly simple, maybe, to amend our bill to talk about funding 
from the government being contingent upon this perimeter 
security being present----
    Chairman Lieberman. That is a good idea.
    Senator McCaskill [continuing]. And any other--because I am 
sure all of these labs, whether it is in the efforts that you 
all referred to in terms of government funding, of trying to 
get the BARDA and the BioShield that Senator Talent referred to 
in terms of investment in the vaccination, that we ought to be 
able to hook up the contingency of public money with the 
requirement of these securities, and I will try to follow up 
for that.
    It is interesting that you both agree that our most likely 
problem is going to be with a rogue scientist and, therefore, 
that would seem to dictate incredibly aggressive screening 
procedures and an incredibly aggressive mental health screening 
and all of that. On the other hand, Senator Talent, you said 
that part of our problem is our fear in taking that risk is 
paralyzing our ability to get good people in the door that we 
desperately need for their scientific acumen and backgrounds. 
And you said just, I think, a few minutes ago that the 
Executive Branch is going to need to take the lead on this.
    Do you think there is anything else that we can do in 
Congress or you can do in your Committee to give the Executive 
Branch cover, because if it is about a political risk----
    Mr. Talent. Yes. It is interesting that you said that word, 
because I was just thinking that one of the things that 
Congress could do, and almost informally, is approach the key 
decision makers and say, look, if you feel you need to take 
some responsibility for saying, we are going to hire somebody 
who has language skills and complete the security review--hire 
them on a preliminary basis and complete the security review so 
we can get them in the door, we are going to protect you. We 
are not going to hang you up for making that kind of a 
decision. I think that might happen.
    The key here, though, is that the bill is designed to get 
everybody at the same table and talking about this so what will 
emerge from there is the right balance that I don't think you 
can prescriptively in a bill say. And you can go wrong in 
either direction.
    I mean, Fort Detrick, in response to the Ivins case, 
imposed such strong security measures that they have stopped 
doing any research.
    Senator McCaskill. Right.
    Mr. Talent. Well, that is not a good result, and neither is 
a good result to have labs that are saying, well, we are going 
to ignore what the GAO is telling us. We don't want to have x-
ray machines. I mean, I don't get why you couldn't have x-ray 
machines.
    So I think what the bill is aiming at is to create a 
cooperative process where reasonable people are getting 
together and recognizing that even if they come from the 
scientific community, security is important. Even if they come 
from the security community, science is important.
    It gives me a chance to just propose--you had an addition 
you suggested, Senator. I think if you created some kind of a 
council on lab security and said you want the representatives 
from the key nonprofits and the agencies, and they have to get 
together on a regular basis and they have to talk, and then you 
all oversaw that, I think that would be useful as an 
integrator, as a way of creating that kind of community of 
interest across institutional lines that we are trying to get 
at. That, I think, would be helpful, Senator.
    Senator McCaskill. Is there anything else, Senator Graham 
or Senator Talent, that we have not included in this bill that 
you think needs to be included?
    Mr. Graham. Well, I think the basic structure of this bill 
is not to fall in the trap of being overly prescriptive. This 
is a rapidly evolving area of science. The issues that are 
probably going to be our biggest challenge 20 years from now, 
we can't even conceptualize today. What you are doing is you 
are setting in place a series of institutions that will have 
the capacity over time to respond to emerging threats. There 
may be some details that we could discuss, but I think the 
basic approach of this as a matter of good public 
administration is sound and therefore we give it our strong 
support.
    Mr. Talent. The model is what you did in this Committee 
with the intelligence community. That, to me, is the model, 
where you set in motion forces within the intelligence 
community that have caused them to work together, and, in fact, 
that is one of the really good news stories of the last 3 or 4 
years. The increase in our intelligence capabilities is, I 
think, directly as a result of what you all did in that bill.
    Senator McCaskill. If I could, we are going to have a 
hearing on another topic that you all have obviously talked 
about in your assignment, and I know that, Senator Talent, you 
have written about it. We are going to have a hearing, I think, 
in the Armed Services Committee on Thursday on missile defense. 
I would like, Senator Talent, just to ask you your reaction to 
Secretary Gates's recommendation that we rely on the SM-3s in 
the short run with switching our emphasis in the long run to 
improved technology that would not be reflected in what had 
been planned by the Bush Administration----
    Mr. Talent. For Czech Republic and Poland.
    Senator McCaskill [continuing]. For Czech Republic and 
Poland.
    Mr. Talent. And I am happy to do that, Senator. I think we 
should both say this is--we are taking off our hats now, our 
Commission hats, because this is something we didn't feel was 
part of our mandate, missile defense, and we didn't get into 
it, and deliberately so. And Senator Graham and I have talked a 
lot about this individually. He may have slightly or greatly 
different views.
    I didn't like it, the decision, for a number of reasons. 
Part of it is missile defense, I think, the ground-based 
interceptors, we know will work. We were far along in that 
process. It is the less expensive and the quicker way of doing 
it. The intelligence assessment that the Iranians may be moving 
more slowly than we think, I think is questionable, and in any 
event, I don't want to take that chance. And this is a subject 
where I would like to see redundancy rather than choosing one 
from another. And then there are serious foreign policy 
implications, as well.
    So it was not something I liked to see happen, but I say 
that as a private individual and maybe as a commentator on 
foreign policy in general, not as the vice chairman of the 
Commission.
    Senator McCaskill. Thank you.
    Mr. Graham. As Senator Talent has said, we are taking off 
our Commission hats, where we were very collegial and our 
report had the unanimous support of all of the nine members of 
the Commission. I have had some concerns about the concept of 
missile defense in the context that our stated national policy 
is that if a country uses a nuclear weapon against the United 
States or an ally, the result of that will be massive 
retaliation. If a reasonable country feels that we are serious 
about that, you would think that they would be extremely 
reticent to use such a weapon against the United States, 
particularly reticent to use it in a form that has their 
signature all over it.
    I have sat in a signals intelligence facility thousands of 
miles away from the site and seen a foreign government launch 
its missiles. We have the capability of monitoring missiles all 
over the world and would know within seconds of launch who was 
responsible. There are many other ways today that a state which 
wanted to deliver a nuclear weapon against the United States 
could do so without putting its signature on it, such as 
delivering it in a cargo container. That is why I think seaport 
security is, among other reasons, such an important element. So 
I think it is a defense against an increasingly unlikely event.
    Second, we state in our report the importance of the U.S.-
Russian relationship. Between us, we control about 95 percent 
of the nuclear weapons in the world. There is no relationship 
that is more important to restraining the proliferation of 
nuclear weapons than that between the United States and Russia. 
We are two big, powerful countries and we will periodically 
have disagreements, but we need to try to manage our 
relationship in the context of the primacy of avoiding 
contributing to a nuclear conflagration.
    So the fact that this was such a sensitive thing to the 
Russians, and understandably so--if they had facilities like 
this located in Cuba, we know how we would react--we knew what, 
in fact, we did do back in the early 1960s--were the benefits 
to us in terms of our defense against nuclear weapons worth the 
risk to our relationship with the Russians that the sites in 
the Czech Republic and Poland represented? I personally think 
not, so I believe that we have made a wise decision and that 
the overall security of the country is heightened.
    Some of the test of that will be what do we do now with 
this new approach that Secretary Gates is discussing of a 
different way to defend ourselves against missiles and how we 
use maybe some of the resources that we would have spent there 
to do a better job of defending those places such as our 
seaports, which I think are much more likely to be the gateway 
to get a nuclear weapon into the United States than by 
launching it with a missile that has your name written on the 
side of it.
    Senator McCaskill. Well, I am glad I was able to get this 
bipartisan agreement to divide opinion here before we finished. 
[Laughter.]
    Thank you very much for your indulgence on that question. 
They are both very knowledgeable and I wanted to get both of 
their takes on it. Thank you.
    Chairman Lieberman. I am glad you did. It was helpful. 
Thank you.
    We are going to do a second round, quickly, of 5 minutes. 
We have got a vote at noon.
    Let me focus here on another part of your Commission report 
and of the bill. I think you have done a great service in 
focusing on the development of a robust response capability to 
a bioterrorist attack as one of the best things we can do to 
deter such attack, as we said before.
    I would also say, parenthetically, as we are geared up now 
to deal with the H1N1 pandemic and its potential spread in our 
country that whatever we do to set up systems to respond to a 
bioterrorist attack will also enable us to use those same 
systems to respond to an epidemic or a pandemic or an outbreak 
of disease of one kind or another.
    Let me ask you a baseline question as to where we are now, 
which is whether you think any of our major metropolitan areas 
today are ready to get antibiotics or countermeasures out to 
people at risk within a reasonable amount of time, or really a 
necessary amount of time, after a biological weapon attack. I 
gather some people have the standard of 48 hours. Of course, 
that seems like a long time to me, 2 days. So the question is, 
are any of our major metropolitan areas really ready to 
dispense the countermeasures that people will need to minimize 
the impact of a biological attack?
    Mr. Graham. Probably not, at least, I am not aware of any. 
And it is a more complicated problem than the act of dispersing 
the medications. One is knowing that you are under attack.
    Chairman Lieberman. Right.
    Mr. Graham. There are probably, within a 50-mile radius of 
where we sit today, 75 hospitals. If each one of those 75 had 
three people show up with symptoms that might be associated 
with a lethal pathogen, they might conclude that it was an 
aberration. It is only when you aggregate three times 75 that 
you begin to appreciate that this is not just a random 
incident, that we are under attack, and then begin the 
processes that are necessary.
    I am, frankly, not aware of anyplace that has a fully 
coordinated means by which that could be done within the time 
frame necessary to then start the process of getting 
medications out to people.
    The reason that we think that in the area of biological 
that prevention equals preparation to respond to the attack is 
that there, you do have the potential of making biological--
they are still a weapon of destruction, but you might be able 
to eliminate the middle word, ``mass.'' If you are able to 
respond sufficiently, you can contain the effect of a 
biological attack. With a nuclear attack, tens or hundreds of 
thousands of people are going to be killed and there is no way 
to reduce that number.
    We also, in some discussions with our intelligence 
agencies, in their assessment of the mentality of our 
adversary, that our adversary, once they come into possession 
of the capability of a biological attack, are probably going to 
use that fairly quickly. They are not in the business of 
stockpiling materials for some future attack, like maybe the 
North Koreans are trying to do with their nuclear capability. 
So they will want to use it quickly.
    They will assess a range of targets, both in the United 
States and worldwide, and are likely to use it against the 
target that they think will result in the highest kill rate. So 
if you have prepared yourself and your adversary is aware of 
the preparation that you have done, you are probably going to 
be down the pecking order in the likelihood that you will be 
the site selected to target that to be used soon after 
acquisition of a biological weapon. So that is why we think 
that one of the most important deterrents in the biological 
area is how well you are prepared to deal with the event 
itself.
    Mr. Talent. Mr. Chairman, I should say I just snuck around 
and asked the staff, and they tell me that there are models out 
there that are pretty far advanced. I don't think anybody feels 
like they are as prepared as they want to be, but the Postal 
Service with its model has been working with localities. I 
think our statement says Seattle, Philadelphia, and Boston. 
They have been pleased about the tests that they have run 
there. So I think we are making progress----
    Chairman Lieberman. This is on the ability of those 
communities to respond quickly.
    Mr. Talent. The overwhelming point that we kept getting, 
and it makes great sense, is that whatever the Federal 
Government does, it has to adopt an attitude of working with 
the local authorities and let them adjust to what they think 
they need to do. And this is, of course, how first responders 
are--they have all these kinds of sharing and partnership 
agreements locally and mutual support agreements and we have to 
make that work for us rather than DHS saying, this is how you 
will do it everywhere, because that won't work.
    Chairman Lieberman. Thanks to both of you. That is why we 
have a separate title on what the Federal Government can do to 
incentivize and support, rather than demand that response 
capability, because that ultimately, as you said, both of you, 
very convincingly, is the best deterrent we can have. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Just following up on that point, we have done a lot of work 
with State and local governments, and with our private sector 
partners to improve the response because obviously if you are a 
terrorist and you think a community is unable to respond, that 
gives you even more of an incentive to choose a particular 
method of attack.
    But there is also some discouraging news in that area. 
Earlier this month, the Inspector General (IG) for the 
Department of Health and Human Services released a report that 
looked at the ability of local communities to effectively and 
efficiently distribute medical countermeasures in the event of 
a pandemic flu. Well, obviously that possibility is here right 
now.
    The IG examined 10 localities and found that most of them 
had not completed planning for countermeasures distribution and 
dispensing. They found, for example, that there weren't formal 
agreements that had been worked out between the local hospitals 
and the communities, and that they failed to identify 
alternative sources of staffing to cope with the absentee rate 
that would be associated with a pandemic.
    That really concerns me, that this many years have passed 
and we still don't have the measures and the planning in place. 
Could you both comment a little more on what specifically you 
think that we need to be doing in this area? I will start with 
you, Senator Talent, since you addressed this in your opening 
comments.
    Mr. Talent. Sure. What you said doesn't surprise me, and I 
think it is consistent with what Senator Graham and I were 
saying. I am not confident that any place in the country is 
where it needs to be or really close to where it needs to be. 
Now, there are some areas that are ahead of others and I think 
we can look at what they are doing and try and model.
    But what you said and what the IG said is perfectly 
consistent with what we found, that we are not ready in this 
area. It is, I don't want to say inviting attack, but it is an 
avenue of deterrence of which we are not taking advantage. And 
I think it goes back to what Senator Lieberman opened up the 
hearing with, which is how do you create an ongoing sense of 
urgency within this government and local governments, as well.
    Senator Graham has talked about the fact that we, as a 
Commission are looking at doing this, providing a citizen 
check-list--you may want to talk about this, Senator Graham--
for how folks can check up on what their local government is 
doing. What are the 10 things your local government should be 
doing? And I think that will be helpful.
    But everything that we can continue to do to raise the 
awareness that this is really a possibility and, in fact, will 
become a probability--it is the insidious nature of terrorism. 
It is one of the reasons it is an effective form of conflict 
against first world countries. It is shadowy, it is beneath the 
surface, and so we just tend to forget that it is there until 
they jump up and attack us, and how do you promote that in a 
society where people are doing what we want them to do? They 
are off with their families and their jobs and doing good 
things and they are not waking up every morning worrying about 
this, and I really don't want them to, but I do want a stronger 
sense of urgency, and I think you put your finger on one of the 
real difficulties.
    Senator Collins. Thank you. Senator Graham.
    Mr. Graham. Just to pick up on what Senator Talent said, 
one of the things that our Commission has done during this 
second phase of our life, the post-report phase, is we have 
commissioned various studies. One of those has been with Texas 
A&M University, which has a Center for Homeland Security, to 
develop a Guide for Citizens. If, let us say, you are a citizen 
of Camden, Maine, and you want to know how well prepared is 
Camden in the event of either a natural or a terrorist-caused 
biological incident in your community, how would you as a 
citizen find out? Well, what we hope to give to citizens is a 
list of the right questions to answer and some idea of the 
metrics to be used in evaluating the answers that you get so 
that there can be an informed citizenry, if necessary, pushing 
its governmental agencies to higher standards of action in 
order to protect the people of that specific community.
    Senator Collins. Thank you. Thank you all for your 
testimony.
    Chairman Lieberman. Thank you, Senator Collins. Senator 
Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Graham, in March, you testified at a hearing I held 
to examine the creation of a National Security Service 
Workforce. It seems that personnel plays a huge part in what we 
are trying to do. You articulated the Commission's findings and 
recommendations regarding workforce challenges in the area of 
national security, particularly in the intelligence community.
    I have been considering legislation alongside other Members 
of this Committee to strengthen the national security 
workforce. My question to you is, how might this Committee 
encourage the development of national security professionals 
government-wide?
    Mr. Graham. Well, if I could focus, as I did in March, on 
the specific area of the intelligence community, although I 
believe the principles are applicable elsewhere, in my 
judgment, one of the most effective role models of developing 
human capital is the military's Reserve Officer Training Corps 
(ROTC) program. Over half the commissioned officers in every 
branch of the United States military comes through a ROTC 
program.
    The program has the opportunity that, let us say, if the 
Navy is looking 10 years down the road and they say, 
anticipating some new technology, we are going to need more 
officers with a particular set of scientific knowledge, they 
can begin to adjust their selection process of persons who will 
be entering the Navy ROTC to prioritize students who are going 
to be studying in the areas where they will acquire that 
knowledge. So it has a flexibility and a responsiveness to both 
current and anticipated conditions.
    Second, it has the requirement that people commit to a 
certain number of years of service as a consequence of 
receiving the Federal assistance in securing their education. 
So there is a reliability that you can depend on the fact that 
you will have a certain number of years of service from these 
individuals.
    Third, it tends to promote a concept that the military has 
been emphasizing and which we believe our intelligence agencies 
need to further emphasize, and that is jointness, that people 
who get to know each other as students, whether they end up in 
the Army infantry or the armor or other specific area of the 
Army, they are going to have had a common shared experience 
during their ROTC years.
    So I think that is a model, and let me say, there is a 
provision in the intelligence authorization bill that will move 
towards establishing such a program for the intelligence 
agencies. I would recommend it to your attention, and at such 
time, I hope that as you consider and vote on the future 
intelligence authorization bill with that provision, that you 
will be supportive.
    Senator Akaka. Before my time runs out, this question goes 
to either Senator Graham or Senator Talent. I took a particular 
interest in the Commission's recommendations to strengthen 
United States public diplomacy efforts. Last September, I held 
a hearing on public diplomacy reform and found that despite the 
existence of a strategic plan, there was little support for it 
across the government. This is an area where improvement is 
needed.
    Would you please elaborate on the Commission's 
recommendations for developing a new public diplomacy strategy 
and how it could reduce the risks associated with bioterrorism 
and the misuse of technology? Senator Talent.
    Mr. Talent. It is the last question and you have introduced 
a really important subject, and I am grateful to you for your 
leadership on this. Senator Graham and I have talked a lot 
about this. We talked a lot about it at the Commission, 
particularly in the context of our recommendations regarding 
Pakistan.
    We could not agree with you more. I mean, it is obvious. We 
have now seen this across a number of administrations. We saw 
it in Bosnia, saw it in Iraq, and we are seeing it now in 
Afghanistan, that our government needs the capability to do 
what you call public diplomacy, what Secretary of Defense 
Robert Gates has called smart power or soft power, a range of 
capabilities that are primarily civilian in nature that will 
assist us, either assist the military or operate outside the 
military context, and they include the ability to effectively 
communicate America's intentions.
    And we have a President who is popular abroad. He goes and 
gives speeches. That is a very good thing. But we have all run 
in campaigns here. You can't just give a speech and then expect 
that the message is going to--you have to follow it up with a 
kind of campaign that effectively communicates your intentions. 
We don't have that capability organically as a government. We 
just don't, not to mention the ability to systematically build 
local economic and democratic grassroots institutions that we 
have seen we need that ability over and over and over again and 
we don't have it. And all that is connected up with the public 
diplomacy piece.
    So I will just say I think we need an effort across the 
civilian agencies, led by the Secretary of State--we say this 
in the report--similar to what the military did over a 
generation ago with the Goldwater-Nichols Act, what you all are 
causing the intelligence community to do, where they canvas 
what the requirements are for this community as a whole, 
inventory the capabilities they have, and then have a concerted 
plan for developing the necessary capabilities, and it will 
mean working together and sharing culture.
    But I agree with you. They haven't really started, and I 
don't--it would be a great subject--I guess you need the 
Foreign Affairs Committee and some of the others to do it, but 
this is an area where Congress, I think, if you really show an 
interest over time, they will have to respond, and otherwise, I 
am concerned that it isn't going to happen. But kudos to you 
for continuing to push it, Senator.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Akaka.
    I agree with you, Senator Talent, for the kudos to Senator 
Akaka. He has been really noble in this pursuit.
    I will say, and I appreciate the reference to the 
intelligence community. In the briefings that we have received 
on this ongoing terrorist plot here in the United States, 
Colorado, New York, apart from being unsettled by the clearest 
evidence we have received in a long time of an attempt that is 
at least connected to al-Qaeda and Afghanistan and Pakistan, 
but the remarkable cooperation among law enforcement agencies 
of the United States and intelligence agencies, both global and 
domestic has been really quite reassuring.
    This has been a very productive morning for our Committee. 
I thank you very much for your continuing efforts, Senator 
Graham, Senator Talent, and Mr. Kutz.
    This Committee has a sense of urgency about this. We take 
this legislation that we have introduced very seriously. 
Incidentally, not only Senator McCaskill has joined, but 
Senator Bob Bennet of Utah has come on as a cosponsor. Senator 
Collins and I intend to mark this bill up at a business meeting 
of our Committee next month. So we are going to really move it 
quickly. I suppose that is a notice to anybody out there who 
has any input they want to give our Committee before we go to 
markup that we intend to move this with speed, because that is 
what the reality of our world requires.
    We will keep the record of this hearing open for 10 days 
for any additional statements or questions that anybody might 
have.
    Senator Collins, would you like to say anything in 
conclusion?
    Senator Collins. Thank you, Mr. Chairman. I just again want 
to thank our witnesses for all of their work--they have all 
been working on it for quite some time--and to assure you of 
our determination to get the kinds of reforms that we all 
believe are needed signed into law.
    Chairman Lieberman. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3840.001

[GRAPHIC] [TIFF OMITTED] T3840.002

[GRAPHIC] [TIFF OMITTED] T3840.003

[GRAPHIC] [TIFF OMITTED] T3840.004

[GRAPHIC] [TIFF OMITTED] T3840.005

[GRAPHIC] [TIFF OMITTED] T3840.006

[GRAPHIC] [TIFF OMITTED] T3840.007

[GRAPHIC] [TIFF OMITTED] T3840.008

[GRAPHIC] [TIFF OMITTED] T3840.009

[GRAPHIC] [TIFF OMITTED] T3840.010

[GRAPHIC] [TIFF OMITTED] T3840.011

[GRAPHIC] [TIFF OMITTED] T3840.012

[GRAPHIC] [TIFF OMITTED] T3840.013

[GRAPHIC] [TIFF OMITTED] T3840.014

[GRAPHIC] [TIFF OMITTED] T3840.015

[GRAPHIC] [TIFF OMITTED] T3840.016

[GRAPHIC] [TIFF OMITTED] T3840.017

[GRAPHIC] [TIFF OMITTED] T3840.018

[GRAPHIC] [TIFF OMITTED] T3840.019

[GRAPHIC] [TIFF OMITTED] T3840.020

[GRAPHIC] [TIFF OMITTED] T3840.021

[GRAPHIC] [TIFF OMITTED] T3840.022

[GRAPHIC] [TIFF OMITTED] T3840.023

[GRAPHIC] [TIFF OMITTED] T3840.024

[GRAPHIC] [TIFF OMITTED] T3840.025

[GRAPHIC] [TIFF OMITTED] T3840.026

[GRAPHIC] [TIFF OMITTED] T3840.027

[GRAPHIC] [TIFF OMITTED] T3840.028

[GRAPHIC] [TIFF OMITTED] T3840.029

[GRAPHIC] [TIFF OMITTED] T3840.030

[GRAPHIC] [TIFF OMITTED] T3840.031

[GRAPHIC] [TIFF OMITTED] T3840.032

[GRAPHIC] [TIFF OMITTED] T3840.033

[GRAPHIC] [TIFF OMITTED] T3840.034

[GRAPHIC] [TIFF OMITTED] T3840.035

[GRAPHIC] [TIFF OMITTED] T3840.036

[GRAPHIC] [TIFF OMITTED] T3840.037

[GRAPHIC] [TIFF OMITTED] T3840.038

[GRAPHIC] [TIFF OMITTED] T3840.039

[GRAPHIC] [TIFF OMITTED] T3840.040

[GRAPHIC] [TIFF OMITTED] T3840.041

[GRAPHIC] [TIFF OMITTED] T3840.042

[GRAPHIC] [TIFF OMITTED] T3840.043

[GRAPHIC] [TIFF OMITTED] T3840.044

[GRAPHIC] [TIFF OMITTED] T3840.045

[GRAPHIC] [TIFF OMITTED] T3840.046

[GRAPHIC] [TIFF OMITTED] T3840.047

[GRAPHIC] [TIFF OMITTED] T3840.048

[GRAPHIC] [TIFF OMITTED] T3840.049

[GRAPHIC] [TIFF OMITTED] T3840.050

[GRAPHIC] [TIFF OMITTED] T3840.051

[GRAPHIC] [TIFF OMITTED] T3840.052

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
